                        U.S. Department of Agriculture
                            Office of Inspector General




Controls over Genetically Engineered
    Animal and Insect Research




                               Audit Report 50601-16-Te
                                              May 2011
                              United States Department of Agriculture
                                    Office of Inspector General
                                     Washington, D.C. 20250




DATE:          May 31, 2011

AUDIT
NUMBER:        50601-16-Te

TO:            Dr. Gregory L. Parham
               Administrator
               Animal and Plant Health Inspection Service
               ATTN: Joanne L. Munno

               Edward B. Knipling
               Administrator
               Agricultural Research Service
               ATTN: Michelle Garner

               Chavonda Jacobs-Young
               Acting Director
               National Institute of Food and Agriculture
               ATTN: Edward Nwaba

FROM:          Gil H. Harden /s/ Rod DeSmet (for)
               Assistant Inspector General
                for Audit

SUBJECT:       Controls over Genetically Engineered Animal and Insect Research

The report presents the results of our audit of the controls over genetically engineered animal and
insect research. The responses from the Animal and Plant Health Inspection Service, the
National Institute of Food and Agriculture, and the Agricultural Research Service are included in
their entirety as exhibits in this report.

We accept your management decision for Recommendations 1, 3, 4, and 5 for the subject audit.
Please follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer, Director, Planning and Accountability Division.

We are unable to accept management decision for Recommendations 2, 6, 7, and 8.
Documentation and actions needed to reach management decision for these recommendations are
described in the OIG Position sections of the report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
Dr. Gregory L. Parham, et al.                                                                 2


regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents
Executive Summary ..................................................................................... 1
Background & Objectives ............................................................................ 4
Background ................................................................................................. 4
Objectives ................................................................................................... 8
Section 1: APHIS Regulations Regarding GE Animals and Insects Need to be
Strengthened ............................................................................................... 9
Finding 1: APHIS Needs to Revise How its Regulations Pertain to GE
Animals and Insects ..................................................................................... 9
        Recommendation 1 ........................................................................... 12
        Recommendation 2 ........................................................................... 12
Section 2: USDA Agencies Need to Strengthen Their Controls over Research
................................................................................................................. 14
Finding 2: NIFA Needs to Develop a Formal Process for Reporting and
Monitoring Research Incidents Involving rDNA ......................................... 14
        Recommendation 3 ........................................................................... 15
        Recommendation 4 ........................................................................... 16
Finding 3: APHIS’ Center for Plant Health Science Technology (CPHST)
Needs a Formal Research Approval and Review Process ............................. 16
        Recommendation 5 ........................................................................... 17
Section 3: USDA Needs to Improve Security at Laboratories Researching GE
Animals and Insects ................................................................................... 18
Finding 4: ARS Needs to Develop a Process for Tracking Recommendations
from its Safety, Health, and Environmental Evaluation Inspections ............. 18
        Recommendation 6 ........................................................................... 19
Finding 5: APHIS’ CPHST Needs to Develop a Comprehensive Security Plan
................................................................................................................. 20
        Recommendation 7 ........................................................................... 20
        Recommendation 8 ........................................................................... 21
Scope and Methodology ........................................................................ 22
Abbreviations .......................................................................................... 24
                                                                                                           2


Exhibit A: Coordinated Framework – Approval of Commercial
Biotechnology Products ........................................................................ 25
Exhibit B: Coordinated Framework – Biotechnology Research
Jurisdiction ............................................................................................. 27
Agency Responses................................................................................. 29
Controls over Genetically Engineered Animal and Insect Research
Executive Summary
In recent years, scientists have begun to genetically modify animals and insects for a wide variety
of purposes, including enhancing the productivity of food animals and reducing problems posed by
agricultural insect pests. Some of this research is conducted and funded by Department of
Agriculture (USDA) agencies, such as the Agricultural Research Service (ARS); the National
Institute of Food and Agriculture (NIFA), formerly the Cooperative State Research, Education, and
Extension Service (CSREES); and the Animal and Plant Health Inspection Service’s (APHIS)
Center for Plant Health Science and Technology (CPHST). The Office of Inspector General (OIG)
initiated this audit to determine if current laws and USDA regulations provide sufficient authority to
control genetically engineered1 (GE) animal and insect research, and to determine if USDA
agencies involved in this research have sufficient controls in place to ensure that GE animals and
insects would not be inadvertently released, which could cause harm to commerce, the
environment, and public health.

GE animals and insects are understood to be encompassed—along with non-GE animals and
insects—within broader regulations regarding animal disease and plant pests.2 To date, no new
laws have been codified to specifically address the regulation of GE animals, and authority
relevant to the oversight of GE animals and insects is shared between USDA and the Food and
Drug Administration (FDA). USDA has authority over GE animals and insects that are animal
pests under the Animal Health Protection Act, and GE insects that are plant pests under the Plant
Protection Act. FDA has responsibility over GE animal approvals of new animal drugs that
could enter the food supply. Within USDA, regulatory authority over GE animal and insect
research is triggered when GE animals, animal pests, and plant pests are imported, moved
interstate, exported, or field-tested.

We found that APHIS has not issued regulations that pertain specifically to the introduction
(import, interstate movement, or field release) of GE animals or insects. The APHIS program
units focusing on biotechnology and animal health, respectively, had not coordinated with one
another to prioritize the development of a regulatory framework for GE animals and insects. As
a result, the requirements that apply to these organisms were not clear to researchers and the
public (see Finding 1).

To secure genetic engineering research inside USDA laboratories, USDA agencies are responsible
for implementing and managing security and biosafety programs to prevent adverse impacts on
the health and safety of USDA employees or the public, and on the environment. USDA agencies
that conduct research on GE animals or insects are responsible for overseeing their research and

1
  Genetically engineered products (i.e., animals, plants, and insects) are created by taking the DNA from one
organism and inserting it into another. The process passes on certain characteristics to the desired plant, animal, or
insect. The resulting organism is called “transgenic.” Transgenic organisms are organisms whose DNA includes
inserted DNA that originated in a different species. Recombinant DNA (rDNA) is two pieces of DNA from
different organisms that have been joined together into a single piece of DNA. In this report, the terms transgenic,
rDNA, and GE are used interchangeably.
2
  See Background for a more detailed description of the regulatory authority for GE animals and insects.

    Audit Report 50601-16-Te                                                                                             1
ensuring that they follow USDA safety and security policies and the guidelines from the U.S.
Department of Health and Human Services’ National Institutes of Health (NIH) regarding such
research. The NIH guidelines specify physical containment, facility design, and facility access
controls for research involving genetic engineering.

Based on our review at the agencies’ Headquarters offices and at four research facilities managed
or funded by USDA agencies, we found that USDA needs to address specific problems at several
laboratories performing research into GE animals and insects.

   ·   NIFA has not implemented a formal process for documenting and monitoring research
       incidents such as unauthorized releases of GE animals, even though USDA’s and NIFA’s
       own research agreements require that researchers report any inadvertent release of GE
       insects and animals. Agency officials stated that because NIFA is a funding agency and not
       a regulatory agency, it relies on assurances from universities and reports from other agencies
       to ensure that researchers are complying with applicable regulatory guidelines. However,
       this approach has meant that NIFA has often been slow to respond to research incidents,
       such as when researchers at the University of Illinois allowed 386 pigs—the offspring of
       GE research animals, and thus potentially transgenic themselves—to enter the food supply
       (see Finding 2).

   ·   CPHST, the scientific support division of APHIS’ Plant Protection and Quarantine program,
       develops, adapts, and supports technology to detect, identify, and mitigate the impact of
       invasive organisms. CPHST funds two types of projects, ad hoc and long-term projects.
       Ad hoc projects are projects that should take 3 months or less to complete and should have
       immediate agricultural benefit, while long-term projects are projects that take more than
       3 months to complete. We found that CPHST lacks a formal process for selecting which
       projects will receive funding, evaluating the results of the funded project, and summarizing
       the results of that work. The approval and review process employed by CPHST was
       undocumented and did not have controls to ensure that all research projects were properly
       evaluated. CPHST officials stated that because they have had so much success in
       responding to ad hoc requests they had not developed a formal process for reviewing long-
       term projects (see Finding 3).

   ·   ARS performs safety, health, and environmental inspections at its laboratories, but it does
       not adequately track how laboratories respond to recommendations made during these
       inspections. This occurred because ARS did not have any controls to track
       recommendations that were open or recommendations that were corrected and closed. ARS
       officials explained to us that they relied on its inspectors and response letters from its
       laboratories to ensure that corrective action is taken on recommendations. We noted that
       this approach to resolving these recommendations has resulted in action not being taken to
       correct some deficiencies. For example, one laboratory—the Kerrville Research Facility—
       took more than 36 months to develop a biological safety program, even though inspectors
       had twice recommended that it do so. This laboratory manipulates human cells that, once
       modified, could result in a public safety concern if they were inadvertently released (see
       Finding 4).


   Audit Report 50601-16-Te                                                                        2
       ·   Laboratories operated by CPHST had not developed comprehensive security plans—
           including incident response plans for events such as break-ins—even though Departmental
           regulations require them to do so.3 The CPHST officials who were responsible for
           laboratory security stated that they were unaware that their laboratories were subject to
           Departmental regulations requiring a comprehensive security plan, and thus they did not
           develop this plan (see Finding 5).

Overall, OIG concluded that APHIS needs to develop regulations that clearly define the agency’s
role in regulating the introduction of GE animals and insects. While the problems noted at
laboratories involved in the research of GE animals and insects were relatively minor and did not
lead to the inadvertent release of any problematic animals or insects, we concluded that the
agencies involved should act proactively to strengthen their controls now so that they can reduce
the possibility of future problems.

Recommendations Summary

APHIS should develop a regulatory framework that clearly defines APHIS’ scope of coverage
and regulatory requirements for the introduction of GE animals and insects, and to develop
performance measures and a timetable to ensure that this regulatory framework is developed in a
timely manner and meets strategic goals.

NIFA should develop and implement a formal process for documenting and monitoring research
incidents involving GE animals and insects.

APHIS should direct CPHST to develop management controls for a work plan approval and
review process that is transparent and ensures the accountability of funded projects.

ARS should develop and implement a process for tracking the status of inspection
recommendations until corrective action has been completed.

APHIS should direct CPHST to create comprehensive security plans for its laboratories.

Agency Response
APHIS, NIFA, and ARS concurred with the recommendations. We have incorporated the
agencies’ responses in the Findings and Recommendations section of the report, along with the
OIG Position. Each agency’s response is included in its entirety at the end of this report.

OIG Position
We accepted management decision for Recommendation 1, 3, 4, and 5. The actions needed to
reach management decision on Recommendations 2, 6, 7, and 8 are provided in the OIG Position
section for each recommendation.


3
    Departmental Manual 9610-2, “USDA Security Policies and Procedures for Laboratories and Technical Facilities,”
    page 7, dated April 30, 2003.

       Audit Report 50601-16-Te                                                                                  3
Background & Objectives
Background
As biotechnology continues to develop, scientists are genetically engineering new varieties of
animals and insects for a wide range of purposes. Scientists are now capable of specifically
tailoring animals to grow more quickly, to have healthier meat and flesh, and to resist diseases.
Genetically engineered (GE) animals are also created to help medical researchers find cures for
diseases.
Scientists are also modifying insects for a number of purposes. One area of research involves
using GE insects to help solve agricultural pest problems. Scientists are attempting to modify
crop-destroying insect pests in ways that weaken their ability to reproduce or that make them less
harmful.

Some concerns exist regarding research into GE animals and insects. In 2002, the National
Research Council formed a committee whose task was to define science-based concerns
associated with products of animal biotechnology.4 The committee issued a report detailing the
risks and concerns associated with GE animals and insects. The committee stated that it
considered environmental issues to be “the greatest science-based concerns associated with
animal biotechnology … in large part due to the uncertainty inherent in identifying
environmental problems early on and the difficulty of remediation once a problem has been
identified …. The release or escape of GE animals could result in a [genetically modified
animal] spreading through reproduction with wild type individuals of the same species …. The
GE organism eventually might replace its relative or become established in that community if it
is more fit than its wild relative in that environment.”

Regulations Regarding Development of GE Animals

The responsibility for regulatory oversight of biotechnology products is shared by three Federal
agencies: the Department of Agriculture’s (USDA) Animal and Plant Health Inspection
Service (APHIS), the U.S. Environmental Protection Agency (EPA), and the U.S. Department of
Health and Human Service’s Food and Drug Administration (FDA).




4
    The National Research Council is part of a private nonprofit institution that provides science, technology, and
    health policy advice under a Congressional charter.

      Audit Report 50601-16-Te                                                                                   4
The following table shows the areas of responsibilities for each agency:

                Agency                      Regulated Biotechnology Products
                APHIS       Plant pests, plants, animals, animal pests, veterinary
                            biologics5
                EPA         Microbial/plant pesticides, new uses of existing pesticides
                FDA         Food, feed, food additives, veterinary drugs, human drugs,
                            and medical devices

In 1986, the Office of Science and Technology Policy—part of the Executive Office of the
President—published the Coordinated Framework for the Regulation of Biotechnology. This
policy document describes the system for coordinating the activities of Federal agencies
responsible for regulating all GE organisms (see exhibit A). The Coordinated Framework for the
Regulation of Biotechnology was founded on the principle that existing health and safety laws
administered by Federal agencies provide a sound network of agency authorities for the
regulation of GE organisms.

Under the Coordinated Framework for the Regulation of Biotechnology, agencies that are
responsible for regulatory oversight of certain product categories or for certain product uses are
also responsible for evaluating the same kind of products developed using genetic engineering
(see exhibit B). Therefore, APHIS is responsible for the regulation of GE plant pests, plants,
animals, animal pests, and veterinary biologics, just as it is responsible for the regulation of
conventional plant pests, plants, animals, animal pests, and veterinary biologics. The laws
currently used to regulate the products of GE animals and insects are the Animal Health
Protection Act, Plant Protection Act, and the Federal Food, Drug, and Cosmetic Act (which is
enforced by FDA).

The Plant Protection Act and the Animal Health Protection Act give APHIS regulatory authority
relating to plant health and animal health, respectively.6 Although FDA’s purview includes GE
animals and insects in general,7 APHIS—because of its authority relating to animal pests and
animal diseases—has authority over the importation, interstate movement, and field release of
GE animals and insects.




5
  Veterinary biologics are veterinary products of biological origin, such as vaccines, antiserums, and diagnostic kits.
6
  Specifically, the Plant Protection Act (Title 7, United States Code (U.S.C.), section 7701 et seq., dated June 20,
  2000) authorizes APHIS to regulate any plant, plant product, biological control organism, noxious weed, article, or
  other means of conveyance of plant pest that could injure, damage, or cause disease in any plant or plant product.
  The Animal Health Protection Act (7 U.S.C. 8301 et seq., dated May 13, 2002) gives APHIS authority to regulate
  the importation and interstate movement of livestock animals, insects, and any means of conveyance that may be
  diseased with, exposed to, or carrying a livestock disease. The Animal Health Protection Act defines “livestock” as
  any farm-raised animal, and “animal” as any member of the animal kingdom (except humans).
7
  Under the Federal Food, Drug, and Cosmetic Act and FDA’s Center for Veterinary Medicine guidance document,
  “Regulation of Genetically Engineered Animals Containing Heritable rDNA Constructs,” issued in draft form on
  September 19, 2008, and in final form on January 15, 2009.
    Audit Report 50601-16-Te                                                                                         5
Under the authority of the Plant Protection Act, APHIS regulations provide procedures for
obtaining a permit or for providing notification, prior to introducing GE organisms that are plant
pests. APHIS regulations define the “introduction” of such articles 8 into the United States as
including any movement into or through the country, or any release into the environment outside
an area of physical confinement. The regulations also describe how the agency may be
petitioned to determine that an article should no longer be regulated.

If a person wishes to move any GE organism that is a potential plant pest into the United States
or between States, he or she must apply for a permit and provide APHIS with details about the
nature of the organism, its origin, and intended use. For the years 2005 to 2009, APHIS issued
58 permits involving GE plant pests. These included 24 interstate movement permits, 25 import
permits, and 9 environmental release permits. The nine environmental release permits were for
GE pink bollworms—plant pests that feed on the seeds of cotton bolls. Researchers have been
interested in modifying pink bollworms to reduce costs and improve the efficiency for the pink
bollworm eradication program. APHIS also oversees field testing (environmental release) of
GE insects that are considered to be plant pests, or that include gene splices from organisms that
are considered to be plant pests. A company, academic research institution, or public-sector
scientist wishing to move or field-test a GE insect must obtain the necessary permits before
proceeding. An applicant must provide complete information about the insect, including new
genes, its origin, the purpose of the test, and the experimental design and precautions to prevent
the escape of insects from a field site.

Since FDA and APHIS potentially share regulatory authority over GE animals and insects, the
two agencies have been discussing their respective roles. On September 19, 2008, FDA
published the draft guidance document “Regulation of Genetically Engineered Animals
Containing Heritable rDNA9 Constructs” in the Federal Register and solicited public comment.
On January 15, 2009, FDA published the final version of the guidance document. This guidance
explains that, where an rDNA construct in a GE animal is intended to affect the structure or
function of the body of the GE animal, that construct is a new animal drug, regardless of the
intended use of products that may be produced by the GE animal. The document was intended to
clarify FDA’s oversight of GE animals under the new animal drug provisions of the Federal
Food, Drug, and Cosmetic Act. In general, the regulations specify labeling and recordkeeping
requirements, shipping requirements, the final disposition of the animals and insects, and
conditions under which food from animals used for clinical investigations can be introduced into
the food supply. The Federal Food, Drug, and Cosmetic Act requires that each new animal drug
application be approved based on a demonstration that it is safe and effective for its intended use.
In its guidance document, FDA stated that it intends to exercise enforcement discretion with
regard to requirements for certain GE animals. According to its guidance, FDA does not intend
to take enforcement action for “GE animals of non-food species that are regulated by other
government agencies or entities, such as GE insects being developed for plant pest control or
animal health protection, and that are under APHIS oversight ….”



8
    The term “articles” means any material or tangible object that could harbor plant pests or noxious weeds.
9
    rDNA, or recombinant DNA, is two pieces of DNA from different organisms that have been joined together into a
    single piece of DNA.

       Audit Report 50601-16-Te                                                                                 6
In the same issue of the Federal Register, APHIS solicited public comment on any potential
effects of animals with GE traits on U.S. livestock health. Specifically, APHIS sought input
regarding GE animal research currently being conducted or planned for the future, the
implications of the importation or interstate movement of GE animals for U.S. livestock health,
and activities that APHIS should consider with respect to U.S. livestock under the Animal Health
Protection Act that would complement FDA’s draft guidance.

Security at USDA Laboratories

To secure GE research inside USDA laboratories, USDA agencies are responsible for
implementing and managing security and biosafety programs to prevent adverse impacts on the
health and safety of USDA employees, the public, or the environment. USDA uses a risk
management approach to establish the Department’s policy for safety and security of critical
assets (e.g., equipment, facilities, functions, personnel, and research or regulatory material and
projects) at USDA facilities that conduct research using rDNA technology.10 Agencies are
required to complete a risk assessment of their research facilities and to develop security policies
based on the assessment to reduce and mitigate the risk of potential threats. Agencies are also
required to develop a safety program that addresses issues such as personal safety and health,
containment, and education.

When constructing and handling rDNA molecules, or organisms or viruses containing rDNA
molecules, institutions that receive funding from NIFA are required to follow guidelines from the
U.S. Department of Health and Human Service’s NIH. These guidelines specify physical
containment, facility design, and facility access controls for research involving rDNA
technology.

USDA agencies that conduct GE animal or insect research are responsible for oversight of their
research and ensuring that their agency is following USDA safety and security policies. Three
agencies within USDA conduct or fund research into GE animals and insects:

     ·   APHIS’ Center for Plant Health Science and Technology (CPHST)—part of APHIS’ Plant
         Protection and Quarantine program—supports USDA’s regulatory decision making and
         operational process through development work, scientific investigation, analysis, and
         technology.

     ·   The Agricultural Research Service (ARS) conducts research aimed at developing solutions
         to agricultural problems affecting Americans’ everyday lives.

     ·   The National Institute of Food and Agriculture (NIFA)—formerly the Cooperative State
         Research, Education, and Extension Service (CSREES)—seeks to advance knowledge for
         agriculture, the environment, and human health and well-being by supporting research,
         education, and extension programs. To accomplish this goal, NIFA funds research grants
         for universities and other partner organizations.


10
  Departmental Manual 9610-1 for Biosafety Level 3 facilities and Departmental Manual 9610-2 for Biosafety
Level 1 and Biosafety Level 2 facilities.

     Audit Report 50601-16-Te                                                                           7
Objectives
The objectives of this audit were to determine (1) which USDA agencies have oversight
responsibilities for regulating GE animal and insect research, (2) whether current law and USDA
regulations provide adequate authority to control GE animal and insect research, (3) the extent of
research activities in the Department and which agencies are involved, and (4) if agencies
established sufficient controls to ensure that GE animals and insects are not inadvertently
released into the environment.




   Audit Report 50601-16-Te                                                                      8
Section 1: APHIS Regulations Regarding GE Animals and Insects
Need to be Strengthened
Finding 1: APHIS Needs to Revise How its Regulations Pertain to GE
Animals and Insects
While the Secretary of Agriculture has emphasized the promise that biotechnology offers and the
need for market acceptance of GE products, APHIS has been slow in developing regulations
regarding GE animals and insects11 that are comparable to the regulations APHIS already has in
place for GE plants and plant pests. APHIS considers regulations for animals and insects a lower
priority because there was more genetic experimentation being performed on plants and because
the public was making relatively few inquiries regarding GE animals and insects. Recently,
however, researchers and the public have expressed concerns about the adequacy of regulations
regarding GE animals and insects. Specifically, they are concerned that GE animals and insects
are being imported into the United States, but are not being reviewed by the correct regulatory
agency or are even identified as GE. Moreover, developing clear regulations concerning
biotechnology is critical to building market acceptance and encouraging GE research.

Under the Coordinated Framework for the Regulation of Biotechnology, APHIS is responsible
for regulating GE plant pests, plants, animals, animal pests, and veterinary biologics.12
Additionally, the Plant Protection Act and the Animal Health Protection Act give APHIS
regulatory authority relating to plant health and animal health, respectively.13 The overall
jurisdiction over GE animals and insects belongs to FDA,14 but APHIS—because of its authority
relating to animal pests and animal diseases—has authority over the importation, interstate
movement, and field release of GE animals and insects. Since the Coordinated Framework for
the Regulation of Biotechnology anticipated that future scientific developments will lead to
further regulatory refinements, APHIS is responsible for periodically reevaluating its regulatory
position in light of scientific developments, determining whether additional regulatory measures
are necessary, and, when necessary, amending or adding regulations.

We found, however, that while APHIS has used this authority to promulgate regulations for
GE plants and plant pests, it has lagged in developed regulations for GE animals and animal
pests. For plants, APHIS published its regulations pertaining to GE plants and invertebrate plant
pests in 1987—Title 7, Code of Federal Regulations, section 340, “Introduction of organisms and
products altered or produced through genetic engineering which are plant pests or which there is

11
   Specifically, animals and insects that are not plant pests.
12
   Veterinary biologics are veterinary products of biological origin, such as vaccines, antiserums, and diagnostic kits.
13
   Specifically, the Plant Protection Act (7 U.S.C. 7701 et seq., dated June 20, 2000) authorizes APHIS to regulate
 any plant, plant product, biological control organism, noxious weed, article, or other means of conveyance that
 could injure, damage, or cause disease in any plant or plant product. The Animal Health Protection Act (7 U.S.C.
 8301 et seq., dated May 13, 2002) gives APHIS authority to regulate the importation and interstate movement of
 livestock animals, insects, and any means of conveyance that may be diseased with, exposed to, or carrying a
 livestock disease. The Animal Health Protection Act defines “livestock” as any farm-raised animal, and “animal”
 as any member of the animal kingdom (except humans).
14
   Under the Federal Food, Drug, and Cosmetic Act and the FDA guidance document “Regulation of Genetically
 Engineered Animals Containing Heritable rDNA Constructs,” issued in draft form on September 19, 2008, and in
 final form on January 15, 2009.
     Audit Report 50601-16-Te                                                                                         9
reason to believe are plant pests.” Given advances in biotechnology and the need to respond to
changes in the Plant Protection Act, APHIS proposed a revision of these regulations on
October 9, 2008.15

In contrast, for GE animals and animal pests, APHIS has not issued regulations pertaining
specifically to the introduction (import, interstate movement, or field release) of GE animals or
animal pests, and instead regards GE animals and animal pests as regulated by regulations
promulgated in 1963.16 These regulations have not been updated to reflect the Animal Health
Protection Act, do not clearly define APHIS’ scope of coverage for regulating movements and
field releases of GE animals and animal pests, and do not describe requirements for developing a
GE animal or animal pest for the market. Essentially, these regulations cover GE animals and
animal pests by inference only.

While APHIS officials in Veterinary Services17 and Biotechnology Regulatory Services18 stated
that they are aware of the need to develop a clear and transparent regulatory framework
regarding GE animals and animal pests, they stated that they have emphasized GE plants and
plant pests because there are few inquiries regarding GE animals and insects—APHIS has not
approved any GE animals for field release, and there have been few requests to import
GE animals into the United States. Instead, APHIS reacts on a case-by-case basis when
researchers request information about regulatory requirements for the movement or field release
of GE animals or animal pests.

OIG acknowledges that APHIS’ approach has been reasonable for regulating the few instances
of experimentation relating to GE animals and insects that have taken place to date. However,
APHIS needs to establish its regulations before such experimentation becomes more common.
In December 2008, the Advisory Committee on Biotechnology and 21st Century Agriculture, an
entity which provides advice to the Secretary of Agriculture on issues related to agricultural
biotechnology, expressed concerns that GE animals were being imported from Asian countries
without being identified as GE, and that there were no controls for such imports. Additionally,
clear regulations for GE research on animals and animal pests are a critical component to
building market acceptance of biotechnology. A well-designed regulatory structure should
provide a clear pathway to the market for safe and useful products. Without such a framework,
consumer confidence decreases, even as the risk increases that GE products might be
inadvertently released.

APHIS-Biotechnology Regulatory Services has taken steps to study, plan, and solicit comments
regarding the regulation of GE animals and insects, but the pace of progress has been slow. In
2007, Biotechnology Regulatory Services established an Animal Policy Branch to work on
animal policy decisions. The branch chief told us that, in coordination with FDA, APHIS-
Veterinary Services, and the EPA, the Branch had been working on determining APHIS’ role in

15
   Federal Register, “Importation, Interstate Movement, and Release into the Environment of Certain Genetically
 Engineered Organisms,” volume 73, pages 60008-60048, dated October 9, 2008.
16
   Title 9, Code of Federal Regulations, section 122, “Organisms and Vectors.”
17
   APHIS’ Veterinary Services unit regulates the import and export of GE animals, animal products, and veterinary
biologics.
18
   APHIS’ Biotechnology Regulatory Services unit regulates the introduction (importation, interstate movement, and
release into the environment) of GE organisms that may pose a risk to plant health.
     Audit Report 50601-16-Te                                                                                  10
regulating GE animals. The Animal Policy Branch concluded that it needs to propose new
regulations and began work on a draft of an advanced notice of proposed regulation that was
geared to addressing the risk of transgenic animals and the health of animal herds. However, this
document has not yet been finalized.

On July 28, 2008, APHIS-Biotechnology Regulatory Services issued its strategic plan for fiscal
years 2009 to 2014 in which it stated that it was “involved in the development of a framework
for regulating GE animals including GE insect pests that may pose a risk to animal and plant
health.” However, the plan does not include any performance measures to assess the agency’s
progress or hold Biotechnology Regulatory Services accountable for achieving these goals.

On September 19, 2008—in conjunction with FDA’s issuance of its draft guidance document19
on regulating GE animals—APHIS-Biotechnology Regulatory Services published in the Federal
Register a request for information20 seeking public comment and scientific and technical
empirical data and information concerning ongoing and future research on GE animals. APHIS
explained that its interest was to ensure that GE animals imported into the United States or
moved interstate do not present risks to U.S. livestock health. APHIS also sought comment on
what types of actions and approaches it should consider in addressing any such risks that would
complement FDA’s oversight.

APHIS-Biotechnology Regulatory Services officials told us that their review of the comments
received in response to the September 2008 request for information indicated that the public had
two major concerns. First, scientists felt that there was a need for APHIS and FDA to
collaborate to ensure the adequacy of regulations and safeguards regarding GE animals and
insects. Second, the public expressed concerns that, because of the overlap in APHIS’ and
FDA’s purview with regard to GE animals, animals that FDA does not review may not be
referred to APHIS (for example, in an import situation). Biotechnology Regulatory Services
officials stated that they had discussed these issues with FDA and APHIS-Veterinary Services.
At the conclusion of these meetings, Biotechnology Regulatory Services stated that it would
draft a Decision Memorandum to the Secretary of Agriculture providing information on the
issues, and seeking guidance regarding how the agency should respond. Biotechnology
Regulatory Services did not, however, set a deadline for completing the memorandum.

In November 2009, Biotechnology Regulatory Services officials told us that they were working
on drafting the Decision Memorandum to the Secretary setting forth three possible options for
clarifying the regulations that apply to GE animals and insects: (1) arguing that these regulations
in their current form give APHIS sufficient authority to regulate GE animals and insects,
(2)modifying these regulations to make it clearer how they relate to GE animals and insects, or
(3) formulating completely new regulations.




19
   Federal Register, “Regulation of Genetically Engineered Animals Containing Heritable rDNA Constructs,”
volume 73, pages 54407-54408. FDA issued the final version of this guidance document on January 15, 2009.
20
   Federal Register, “Genetically Engineered Animals,” volume 73, page 54360, dated September 19, 2008.
     Audit Report 50601-16-Te                                                                               11
On May 20, 2010, a Biotechnology Regulatory Services official provided us with a copy of the
draft decision memorandum. However, this decision memorandum remains an internal
document, no decision has been made, and there is no timeframe for providing it to the
Secretary.

The draft memorandum clearly shows that APHIS has not yet made a firm decision about how it
should proceed with regulating GE animals and insects. We believe that APHIS should revise its
regulations governing the introduction of GE animals and animal pests by adding provisions in
the same areas that it has proposed to revise in its regulations on GE plants and GE plant pests—
namely, to (1) revise the scope of the regulations so that researchers can clearly determine if a
GE organism is subject to APHIS regulations; (2) reorganize the agency’s permit application and
evaluation procedures to make them more transparent and clearly reflect the procedural steps in
the application, evaluation, and issuance of a permit; and (3) provide greater detail about the
application requirements for permits for importation, movement, and environmental release.
APHIS also should establish timeframes and performance measurements that hold Veterinary
Services accountable for developing a regulatory framework that is transparent, clear, and allows
for public participation.

Recommendation 1
APHIS should develop an action plan, including timetables and performance measures, which
ensures that APHIS’ regulatory framework for GE animals and insects is developed in a timely
manner and meets the agency’s strategic goals.

Agency Response
In its response, dated May 2, 2011, APHIS stated that it would develop an action plan by
December 31, 2011, that includes timetables and performance measures which ensure that
APHIS’ regulatory framework for GE animals and insects is developed in a timely manner and
meets the agency’s strategic goals.

OIG Position
We accept management decision for Recommendation 1.

Recommendation 2
APHIS should develop a regulatory framework that clearly defines APHIS’ scope of coverage
and regulatory requirements for GE animals and insects, and parallels the proposed revised
regulations for GE plants.

Agency Response
In its response, dated May 2, 2011, APHIS stated that it would develop a regulatory framework
that clearly defines its scope of coverage and regulatory requirements for GE animals and
insects. APHIS does not agree that the framework should necessarily parallel the proposed
revised regulation for GE plants. According to APHIS, the GE plant regulations were proposed

   Audit Report 50601-16-Te                                                                    12
but have not been finalized and much work remains to be done. Nevertheless, APHIS does
acknowledge the need to clarify for the public the APHIS regulatory framework for GE animals
and insects. APHIS stated that it will develop the framework in accordance with the action plan
developed in response to Recommendation 1.

OIG Position
We agree with the planned corrective action. However, APHIS must ensure that in its
development of the regulatory framework, the controls and oversight to regulate the importation,
interstate movement, field release, and the deregulation of regulated GE animals or insects are
clearly defined to the public and researchers. In order to reach a management decision, APHIS
needs to provide information indicating the timeframes in which the regulatory framework will
be completed and issued.




   Audit Report 50601-16-Te                                                                   13
Section 2: USDA Agencies Need to Strengthen Their Controls over
Research
Finding 2: NIFA Needs to Develop a Formal Process for Reporting and
Monitoring Research Incidents Involving rDNA
NIFA has not implemented a formal process for documenting and monitoring research incidents,
such as unauthorized releases of transgenic21 animals produced by manipulating rDNA. Agency
officials stated that because NIFA is a funding agency and not a regulatory agency, it relies on
assurances from universities and reports from other agencies to ensure that researchers are
complying with applicable regulatory guidelines. As a result, NIFA has been slow to react to,
and sometimes unaware of, incidents such as the entry of potentially transgenic pigs—produced
with NIFA grant funds—into the food supply. In order to ensure the public’s health and safety,
the agency needs to improve how it receives reports of such incidents and how it responds to the
incidents.

Institutions receiving NIFA funding for research are responsible for protecting human subjects,
treating animals humanely, and monitoring the use of rDNA. They must also report to NIFA any
serious illnesses, accidents, releases, or safety problems involving rDNA.

For the years 2002 to 2008, NIFA (then CSREES) funded 51 GE animal and insect research
grant projects and 4 workshop conferences totaling over $5.4 million. Included in the
51 research grants were 17 animal and 34 insect research projects. We found, however, that
NIFA did not have a formal process for receiving such reports and addressing research incidents
involving rDNA. While recipients of research funding are required to report incidents to NIFA,
the agency did not have an established point of contact who receives reports of such incidents.

In one serious incident, we found that from September 2000 to August 2004, NIFA (then
CSREES) approved grants totaling $300,000 to the University of Illinois to conduct rDNA
research on potentially transgenic pigs that were later released into the food supply. The
research involved two groups of pigs. One group had been modified using a cattle gene, and
another was modified using a human gene. The researchers’ goal was to increase the sows’ milk
production, which the researchers hoped would allow more piglets to survive to adulthood. By
decreasing the piglets’ mortality rate, the researchers would have achieved a significant
economic breakthrough for U.S. agriculture. In late 2002, the researchers notified FDA that they
had rendered a transgenic pig from this study. FDA identified this as a violation of its
regulations and initiated an investigation in January 2003. This investigation showed that not
only had the researchers rendered one pig, but between April 2001 and January 2003, the
university had released at least 386 pigs from this study for sale for slaughter as human food.22
The researchers claimed that these pigs, which were the offspring of transgenic animals, did not
inherit the inserted genetic material, but FDA could not confirm this assertion.



21
  Transgenic organisms are organisms whose DNA includes inserted DNA that originated in a different species.
22
  According to Title 21, Code of Federal Regulations, section 511.1(b)(5), dated April 1, 2002, edible products of
investigational animals are not to be used for food unless authorization has been granted by FDA or USDA.
     Audit Report 50601-16-Te                                                                                        14
The FDA’s investigators reported that the researchers did not conduct sufficient evaluations or
keep sufficient records to assess whether the offspring inherited the genetic material. Further, an
FDA inspector stated that FDA had not approved the test that the researcher used to determine if
the transgenic pig’s offspring inherited the transgene. The FDA investigator stated that under the
terms of the study protocols—agreed to by FDA and the university—animals involved in this
particular study were to be destroyed by incineration to prevent their introduction into the human
food supply. Accordingly, FDA sent a warning letter to the university reminding it that study
animals may not be used for food without prior FDA authorization. Although the university
failed to comply with the protocols of the study, FDA did not believe that any product derived
from these animals would have to be removed from commerce for public health reasons, and
USDA concurred with this determination. However, FDA and USDA officials could not provide
documentation to OIG supporting their determinations.

During our review, NIFA officials stated that they learned of the incident only after the fact, and
could not produce any evidence of the incident having been reported to the agency.
Furthermore, although NIFA’s assurance statement signed by the university required the
researchers to dispose of experimental animals correctly, report any inadvertent releases, and
follow NIH guidelines, we found that NIFA had not provided researchers with a contact for
reporting incidents. When we discussed with NIFA officials their response to this incident, they
stated that they did not have a formal process for receiving reports of research incidents of this
sort. NIFA’s research integrity officer stated that, although she receives allegations of
“misconduct,” incidents involving the release of transgenic animals would not necessarily
qualify as research misconduct. In this specific incident, NIFA did not determine misconduct on
the part of the researchers and, from September 2005 through August 2008, continued funding
grants totaling almost $372,000. We concluded that the agency needs a process for handling
incidents of this nature, as well as receiving reports of any serious illnesses, accidents, releases,
or safety problems involving rDNA.

In response to our review, NIFA revised the agreements it signs with researchers to include a
point of contact for reporting and monitoring accidents and releases involving rDNA. In
addition, OIG concluded that NIFA can improve its controls by including in its new agreement
specific language about requirements for reporting accidents and releases involving rDNA.
Once the permanent, revised agreement is in place, NIFA stated that it will provide training to its
staff on the protocols for receiving reports of research incidents.

Recommendation 3
NIFA should develop and implement a formal process for documenting and monitoring research
incidents involving rDNA.

Agency Response
In its response, dated March 15, 2011, NIFA stated that it would amend its Research Award
Terms and Conditions to specifically require all awardees to document and report any incidents
involving the release of rDNA to NIFA within 48 hours. The amended Research Award Terms
and Conditions will be completed by June 30, 2011.

   Audit Report 50601-16-Te                                                                        15
OIG Position
We accept management decision for Recommendation 3.

Recommendation 4
NIFA should establish a central point of contact for receiving reports of accidents and releases
involving rDNA.

Agency Response
In its response, dated March 15, 2011, NIFA agreed to provide a central point of contact for
receiving reports of accidents and releases involving rDNA by June 30, 2011.

OIG Position
We accept management decision for Recommendation 4.

Finding 3: APHIS’ Center for Plant Health Science Technology (CPHST)
Needs a Formal Research Approval and Review Process
From 2007 to 2008, CPHST spent about $550,000 on GE projects intended to improve methods
to eradicate plant pests that pose a risk to agriculture and the environment. Projects included
plant pests such as the pink bollworm, the Mediterranean fruit fly, and the Mexican fruit fly. We
found, however, that the center lacks a formal process for selecting which projects will receive
funding, evaluating the results of funded projects, and summarizing the results of that project.
The approval and review process employed by CPHST was undocumented and did not have
controls to ensure that all projects were properly evaluated. CPHST officials stated that, since
they have had so much success in responding to their short-term ad hoc requests, they had not
developed a formal process for reviewing longer-term projects. Because of the informal nature
of the process for determining which projects would receive funding, CPHST lacks assurance
that it is effectively prioritizing projects that will result in positive outcomes for the U.S.
Government.

Agency managers are responsible for developing and maintaining effective internal controls.
These internal controls are the organization, policies, and procedures used to reasonably ensure
that (1) programs achieve their intended results; (2) resources are used consistently with the
agency’s mission; (3) programs and resources are protected from waste, fraud, and
mismanagement; (4) laws and regulations are followed; and (5) reliable and timely information
is obtained, maintained, reported, and used for decision-making.23 For an agency that does
scientific work such as CPHST, controls over how funding for projects is distributed are
fundamental to the center’s proper functioning.




23
 Office of Management and Budget Circular A-123, “Management’s Responsibility for Internal Control,” dated
December 21, 2004.
     Audit Report 50601-16-Te                                                                                16
To determine how research will be funded, the CPHST Director or national science program
leader staff solicit scientists to submit work plans based on APHIS’ prioritized needs list, which
is developed through meetings with APHIS managers and working groups specific to emergency
programs. Once the work plans are submitted, they are reviewed by the CPHST Director and
national science program leader staff and are approved, disapproved, or modified based on the
available budget and the adequacy of the work plans. Approved plans are subject to two levels
of review. First, the CPHST Director and national science program leader staff annually review
new and existing projects to determine if the proposed work meets the requirements of APHIS’
prioritized needs list for CPHST projects. Second, annually scheduled technical meetings
conduct reviews of laboratories to make recommendations for the future direction of projects.

We found that CPHST’s approval and review process was not transparent. The center lacked
documented controls for tracking whether reviews were performed or documenting the results of
the reviews. The CPHST Director stated that, with short-term and long-term work plans, the
center effectively developed two parallel approval systems. He also stated that it became
difficult to distribute resources between these two parallel systems, for which the approval
process was not accountable, and that tracking the results of research projects was inefficient.

CPHST has recently recognized its need to improve its process for approving and reviewing the
research it funds. In its 2007 to 2012 strategic plan, for instance, the center stated that it needed
a transparent review process for funding new research. When we spoke to the CPHST Director
about what progress was being made towards this goal, he informed OIG that the center has been
overhauling its current system and is in the process of implementing its new system in stages.
In order for CPHST to achieve its objective of implementing a transparent work plan approval
and review process, it must develop and implement formal management controls that will help
ensure the accountability of funded research projects.

Recommendation 5
APHIS should direct CPHST to develop written management controls for a work plan approval
and review process that is transparent and ensures the accountability of funded projects.

Agency Response
In its response, dated May 2, 2011, APHIS stated that CPHST is in the process of implementing
a new SharePoint-based project management system called the CPHST Project Information
Assistant (CPIA). CPHST will also develop a manual describing the project approval and
review process and how to use the new system to manage this process. The CPIA and manual
will be fully implemented by September 30, 2011.

OIG Position
We accept management decision for Recommendation 5.




   Audit Report 50601-16-Te                                                                        17
Section 3: USDA Needs to Improve Security at Laboratories
Researching GE Animals and Insects
Finding 4: ARS Needs to Develop a Process for Tracking Recommendations
from its Safety, Health, and Environmental Evaluation Inspections
ARS performs safety, health, and environmental inspections at its laboratories, but it does not
have a process for tracking recommendations from these evaluations and ensuring that
laboratories take corrective action to remedy any deficiencies. This occurred because ARS did
not have any controls to track recommendations that were open or recommendations that were
corrected and closed. ARS officials explained to us that they relied on their inspectors and
response letters from their laboratories to ensure that corrective action is taken on
recommendations. However, we noted that this approach to resolving these recommendations
has resulted in action not being taken to correct some deficiencies. In particular, we found that
one laboratory—the Knipling-Bushland U.S. Livestock Insects Research Laboratory located in
Kerrville, Texas—did not respond to an inspector’s recommendation to develop a biological
biosafety program until 3 years after the recommendation was made. This laboratory
manipulates human cells that, once transformed, could result in a public safety concern if they
were inadvertently released.

ARS requires that qualified and properly equipped personnel perform periodic inspections of all
agency laboratories, and that laboratories take appropriate corrective actions in response to those
inspections.24 These inspections are intended to ensure that ARS facilities are in compliance
with Federal, State, and local regulations, and that the laboratory is safe for employees and the
surrounding community.

For fiscal years 2005 to 2007, ARS conducted five GE animal and insect research projects (four
insect projects and one animal project) at its laboratories. Together, these projects totaled over
$16 million in funding. As part of the process for ensuring that GE research is conducted safely,
we visited the laboratory in Beltsville, Maryland, where the GE animal research project was
conducted, and the Knipling-Bushland U.S. Livestock Insects Research Laboratory in Kerrville,
Texas, where one of the GE insect research projects was conducted. Although ARS personnel
were performing required safety inspections of the agency’s laboratories, we found that ARS
does not have a process for tracking the results of these inspections and was thus unable to state
how many recommendations had been made, how many were still outstanding, or what
corrective action had been implemented in response to any given recommendation. Without
such a process, ARS could not ensure that laboratories followed through and that they corrected
any deficiencies identified by inspectors.

We found that the Knipling-Bushland U.S. Livestock Insects Research Laboratory, where one of
the GE insect research projects was being conducted, was slow to correct such deficiencies.
ARS inspected this facility in 2005 and 2007 and, on both occasions, the inspector recommended
that the laboratory develop a biological biosafety program, since the facility works with a line of


24
 USDA Research, Education, and Economics Manual, “Safety, Health, and Environmental Management Program
No. 230.0,” section 11, Responsibilities, dated December 5, 2005.
     Audit Report 50601-16-Te                                                                        18
transformed human cells that is tumorigenic (i.e., that produces or tends to produce tumors).
However, we found during our fieldwork that the laboratory did not develop a biosafety
program. Subsequently, as a result of OIG’s finding, laboratory officials reported and provided
evidence that a new biological biosafety program was implemented at the laboratory in July
2008, after our fieldwork was concluded. Corrective action was not performed until after our
review at the laboratory and 3 years after the initial recommendation was made. We concluded
that this was an unacceptably long delay in implementing corrective action necessary to ensure
the health and safety of the laboratory employees and the public.

When we spoke to an ARS official about this long delay in implementing corrective action at this
facility, he stated that the recommendation just “fell through the cracks.” He explained that ARS
relies on response letters from laboratories to ensure that adequate corrective action is taken in
response to inspections, but in this case, the facility did not provide a response letter. This fact
was not noted until OIG reviewed the facility’s inspection reports.

We concluded that ARS could improve its oversight of the inspection process by developing a
process for tracking the status of recommendations made by its inspectors.

Recommendation 6
ARS should direct the agency’s laboratories to develop and implement a process for tracking the
status of inspection recommendations until corrective actions have been completed.

Agency Response
In its response, dated April 26, 2011, ARS stated that it has policies and mechanisms for
implementing corrective actions identified during health and safety inspections. From ARS’
perspective, ARS Manual 230, section 22, specifically addresses health and safety inspections.
ARS stated it is in the process of improving ARS Manual 230, section 22. The updates will
include: new language and guidance that requires workplace safety and health hazards to be
addressed timely; the development and implementation of a hazard abatement plan if a condition
or situation cannot be corrected within 30 days; additional USDA authorities who will be added
that cover biosafety programs and biohazardous waste decontamination, management, and
quality controls at laboratories and technical facilities; and an “accountability statement” that
will be placed within the Deputy Area Director for Business Management’s performance
standards, which will hold the incumbent responsible for tracking and following
recommendations to abate any hazard identified during the inspection process.

OIG Position
We concur with the actions being undertaken by ARS. However, to reach a management
decision, ARS officials need to provide information indicating the dates that ARS will update
and improve ARS Manual 230, section 22, and the Deputy Area Director for Business
Management’s performance standards to ensure that corrective actions from inspections are
timely completed.



   Audit Report 50601-16-Te                                                                      19
Finding 5: APHIS’ CPHST Needs to Develop a Comprehensive Security Plan
Although CPHST laboratories dealt with security concerns on an “as-needed” basis, we found
that they had not developed a comprehensive security plan including incident response plans. At
one facility, for instance, although officials took reasonable steps to improve security after a
break-in took place, they did not follow an established plan. This occurred because officials at
CPHST responsible for laboratory security were unaware that Departmental regulations requiring
a comprehensive security plan applied to their laboratories. As a result, they failed to comply
with this requirement. Developing a comprehensive security plan will help these laboratories
respond more effectively to future security problems.

Departmental regulations require that each USDA laboratory and technical facility create a plan
for security. The plan must include inventory control procedures, physical security systems,
cybersecurity systems, personnel suitability reviews, and incident response plans. 25 The plan
should be based on a risk assessment, which all USDA labs must complete and review at least
once every 5 years.

We found, however, that officials responsible for security at the seven CPHST-operated
laboratories were unaware that these Departmental regulations applied to their laboratories.
When we visited the Decision Support and Pest Management Systems Laboratory in Phoenix,
Arizona, we asked to review the laboratory’s security plan. Agency officials stated that they had
not developed a comprehensive security plan, as they had not been aware of the requirement.
Once they learned of the requirement, however, they agreed that the laboratory was subject to the
regulation.

We also noted that, because officials at CPHST were unaware that they should be following
these Departmental regulations, they had not revised their risk assessments in more than 5 years.
For example, the Phoenix laboratory had performed a risk assessment, but it was more than
5 years out of date. Updating the laboratory’s risk assessment would be helpful for developing a
security plan, since it would enable security officials to identify areas of greatest concern.
Again, once we brought this issue to the attention of CPHST officials, they agreed that their
laboratories were subject to this requirement.

We concluded that, by complying with these Departmental requirements, CPHST could better
identify threats, risks, and critical assets; assess its vulnerabilities; and recommend effective
security countermeasures.

Recommendation 7
APHIS should direct CPHST to develop and implement comprehensive security plans for its
laboratories.




25
  Department Manual 9610-2, “USDA Security Policies and Procedures for Laboratories and Technical Facilities,
section 6, Responsibilities, and section 9(f), Physical Security,” dated April 30, 2003.
     Audit Report 50601-16-Te                                                                               20
Agency Response
In its response, dated May 2, 2011, APHIS stated that it will develop and implement
comprehensive security plans for its laboratories conducting work with GE insects. APHIS will
follow the instructions detailed in Departmental Manual 9610-2, “USDA Security Policies and
Procedures for Laboratories and Technical Facilities,” when developing these security plans.
APHIS stated that it will complete the security plans for its laboratories by September 1, 2011.

OIG Position
We agree with the planned corrective action. However, to reach management decision, APHIS
needs to develop comprehensive security plans not only for those laboratories conducting work
with GE insects, but for all its laboratories that meet the requirements of Departmental Manual
9610-2.

Recommendation 8
APHIS should direct CPHST to review and update its risk assessments, and perform reviews of
each laboratory at least once every 5 years.

Agency Response
In its response, dated May 2, 2011, APHIS stated that it will review and update laboratory risk
assessments, and perform reviews every 5 years for the laboratories conducting GE insect
research. APHIS stated that it will complete the review and update of risk assessments by
September 1, 2011.

OIG Position
We agree with the planned corrective action. However, to reach management decision, APHIS
needs to review and update its laboratory risk assessments and perform reviews every 5 years,
not only for those laboratories conducting work with GE insects, but for all its laboratories that
meet the requirements of Departmental Manual 9610-2.




   Audit Report 50601-16-Te                                                                          21
Scope and Methodology
Our audit work focused primarily on identifying USDA controls over research involving
GE animals and insects, including safety and security policies used to prevent the release of
GE animals and insects into the environment. During the years 2002 to 2009, there were a total of
63 USDA-funded research projects and grants totaling over $22 million involving GE animals and
insects.

Based on the laboratories’ proximity and our projected travel costs, we judgmentally selected
four research facilities conducting such research and reviewed their safety and security policies.
We visited laboratories operated by ARS and APHIS’ CPHST, as well as one independent
laboratory that conducted NIFA-funded research. We evaluated whether current law and USDA
regulations provide these agencies with adequate authority to control GE animal and insect
research and whether agencies had established sufficient controls to ensure that GE animals and
insects are not inadvertently released.

We conducted fieldwork at the Headquarters of USDA agencies and laboratories belonging to
ARS and APHIS’ CPHST from August 2007 to February 2008. We also conducted fieldwork at
a NIFA-funded research laboratory during the same period. We solicited additional documents
and conducted followup interviews through May 2010.

To accomplish our audit objectives, we:

   ·   interviewed agency representatives and evaluated agency policies and procedures to
       determine agency roles and responsibilities related to GE animal and insect research;
   ·   submitted written questionnaires, requested documents, reviewed documentation, and
       conducted interviews at applicable USDA agencies;
   ·   interviewed FDA, EPA, APHIS, and USDA-Office of the General Counsel officials to
       determine the responsibilities of FDA, EPA, and APHIS with regard to GE animal and
       insect research;
   ·   visited ARS and APHIS laboratories and an independent laboratory where a NIFA-funded
       research project was taking place;
   ·   reviewed USDA laboratory safety and security policies as well as NIH guidelines to
       develop pro forma questions for review of USDA laboratories that conduct research into
       GE animals and insects;
   ·   reviewed APHIS’ process for issuing permits for GE animal movements and field
       releases for calendar year 2007 and evaluated APHIS’ management controls over these
       permits;
   ·   reviewed APHIS’, ARS’, and NIFA’s processes for approving and evaluating the results
       of GE animal and insect research projects; and
   ·   reviewed applicable legislative history, laws, regulations, and agencies’ internal reviews,
       including Federal Managers’ Financial Integrity Act reports.


   Audit Report 50601-16-Te                                                                     22
We conducted our audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




   Audit Report 50601-16-Te                                                                  23
Abbreviations
APHIS… ..................... Animal and Plant Health Inspection Service
ARS............................. Agricultural Research Service
CPHST…………… ...Center for Plant Health Science and Technology
CPIA………………...CPHST Project Information Assistant
CSREES….................. Cooperative State Research, Education, and Extension Service
EPA ............................. Environmental Protection Agency
FDA…......................... Food and Drug Administration
FSIS……………….....Food Safety and Inspection Service
GE ............................... Genetically Engineered
NIFA… ....................... National Institute of Food and Agriculture (formerly CSREES)
NIH… ......................... National Institutes of Health
NSF……. .................... National Science Foundation
OIG… ......................... Office of Inspector General
rDNA........................... Recombinant DNA
S&E............................. Science and Education Division
U.S.C. .……………....United States Code
USDA.......................... Department of Agriculture




    Audit Report 50601-16-Te                                                                 24
Exhibit A: Coordinated Framework – Approval of Commercial
Biotechnology Products
This chart and the narrative description that follows (on the next page) are adapted from the Coordinated Framework
for Regulation of Biotechnology, Federal Register, volume 51, page 23302, dated June 26, 1986.

Subject                                                                           Responsible Agency/Agencies
                                                                                                         1
Foods/food additives                                                                        FDA*, FSIS

Human drugs, human medical devices, and human biologics                                     FDA

Animal drugs (veterinary drugs)                                                             FDA

Animal biologics (veterinary biologics)                                                     APHIS

Other contained uses                                                                        EPA
                                                                                                                  2
Plants and animals                                                                          APHIS*, FSIS, FDA
                                                                                                             3
Pesticide microorganisms released in the environment                                        EPA*, APHIS

    All other uses (microorganisms):
                                                                                                             3
      Intergeneric combinations                                                             EPA*, APHIS

      Intrageneric combination:

          Pathogenic source organism:

            1. Agricultural use                                                             APHIS
                                                                                                  4           3
            2. Nonagricultural use                                                          EPA* , APHIS

          No pathogenic source organisms                                                    EPA (requires only a report)

      Nonengineered pathogens:

             1. Agricultural use                                                            APHIS
                                                                                                  4           3
             2. Nonagricultural use                                                         EPA* , APHIS

      Nonengineered nonpathogens                                                            EPA (requires only a report)

* Indicates the lead agency.
1
    The Food Safety and Inspection Service (FSIS), under the Under Secretary of Agriculture for Food Safety,26 is responsible
    for food use.
2
    FDA is involved when in relation to food use.
3
    APHIS is involved when the microorganism is a plant pest, animal pathogen, or regulated article requiring a permit.
4
    EPA requirements will only apply to environmental release under a “significant new use rule.”




26
     At the time the Coordinated Framework for Regulation of Biotechnology was published in 1986, both FSIS and APHIS were
     under the Assistant Secretary of Agriculture for Marketing and Inspection Services, a position that no longer exists. FSIS is
     now under the Under Secretary of Agriculture for Food Safety, and APHIS is under the Under Secretary of Agriculture for
     Marketing and Regulatory Programs.

       Audit Report 50601-16-Te                                                                                                  25
Narrative description of the preceding chart:

Jurisdiction over the varied biotechnology products is determined by their use, as has been the
case for traditional (nonbiotechnology) products.

Food, food additives, human drugs, human biologics, human medical devices, and animal drugs
are reviewed or licensed by FDA. Food products prepared from domestic livestock and poultry
are under FSIS’ jurisdiction.

Veterinary biologics are reviewed by APHIS. APHIS also reviews plants, seeds, plant pests,
animal pathogens, and “regulated articles” (i.e., GE organisms containing genetic material from a
plant pest). An APHIS permit is required prior to the shipment (movement) or release into the
environment of regulated articles, or the shipment of a plant pest or animal pathogen.

“Other contained uses” refers to the closed-system uses of those microorganisms subject to the
Toxic Substances Control Act that are intergeneric combinations (microorganisms that contain
genetic material from dissimilar source organisms). These are subject to EPA’s premanufacture
notification requirement.

Microbial pesticides will be reviewed by EPA, with APHIS’ involvement in cases where the
pesticide is also a plant pest, animal pathogen, or regulated article requiring a permit. (FDA may
become involved in implementing pesticide tolerances for foods.)

“Intrageneric combinations” are those microorganisms formed by genetic engineering other than
intergeneric combinations. For these, when there is a pathogenic source organism and the
organism is used for agricultural purposes, APHIS has jurisdiction. If the microorganism is used
for nonagricultural purposes, then EPA has jurisdiction, with involvement from APHIS in cases
where the microorganism is also a regulated article requiring a permit. Intrageneric
combinations with no pathogenic source organisms are under EPA jurisdiction and require only
an informational report.

“Nonengineered pathogens” that are used for an agricultural use will fall under APHIS’
jurisdiction. Those that are for a nonagricultural use come under EPA jurisdiction, with APHIS’
involvement in cases where the microorganism is also a plant pest or animal pathogen requiring
a permit. Nonengineered, nonpathogenic microorganisms are under EPA jurisdiction and require
only an informational report.




   Audit Report 50601-16-Te                                                                       26
Exhibit B: Coordinated Framework – Biotechnology Research
Jurisdiction
This chart and the narrative description that follows (on the next page) are adapted from Coordinated Framework for
Regulation of Biotechnology, Federal Register, volume 51, page 23302, dated June 26, 1986.

Subject                                                                         Responsible Agency/Agencies
Contained research, no release into environment
                                                                                                  1
          1.   Federally funded                                                 Funding agency
          2.   Non-Federally funded                                             NIH or S&E27 voluntary review

Foods/food additives, human drugs, medical devices, human biologics, animal (veterinary) drugs:
    1. Federally funded                                                      FDA*, NIH Guidelines and review
    2. Non-Federally funded                                                  FDA*, NIH voluntary review

Plants, animals, and animal (veterinary) biologics:
                                                                                                  1      2
          1.   Federally funded                                                 Funding agency , APHIS
          2.   Non-Federally funded                                             APHIS*, S&E voluntary review

Pesticide microorganisms:
      Genetically engineered
                                                                                              2
               Intergeneric                                                     EPA*, APHIS , S&E voluntary review
                                                                                              2
               Pathogenic intergeneric                                          EPA*, APHIS , S&E voluntary review
               Intrageneric nonpathogen                                         EPA*, S&E voluntary review
               Nonengineered
               Nonindigenous pathogen                                           EPA*, APHIS
                                                                                      3
        Indigenous pathogen                                                     EPA* , APHIS
Nonindigenous nonpathogen                                                       EPA*

Other uses (microorganisms) released in the environment
    Genetically engineered
         Intergeneric organisms
                                                                                                  1      2      4
                   1.   Federally funded                                        Funding agency , APHIS , EPA
                   2.   Commercially funded                                     EPA, APHIS, S&E voluntary review
               Intrageneric organisms
                  Pathogenic source organism:
                                                                                                  1      2      4
                   1. Federally funded                                          Funding agency , APHIS , EPA
                                                                                          2
                   2. Commercially funded                                       APHIS , EPA (if nonagricultural use)
                  No pathogenic source organism                                 EPA (requires only a report)
                                                                                                                       2
          Nonengineered                                                         EPA (requires only a report)*, APHIS

* Lead Agency. The lead agency designation depends on which research agency is funding the research (e.g., National Institutes
of Health (NIH), Science and Education Division (S&E), or the National Science Foundation (NSF)) or which regulatory agency
reviews specific-purpose research (e.g., pesticides). The authority refers to approval of the actual execution of experiments and
not to their funding.
1
    Review and approval of research products conducted by NIH, S& E, or NSF.
2
 APHIS issues permits for the importation and domestic shipment of certain plants and animals, plant pests, and animal
pathogens, and for the shipment or release into the environment of regulated articles.
3
    EPA jurisdiction for research on a plot greater than 10 acres.
4
    EPA reviews Federally funded environmental research only when it is for commercial purposes.


     27
       USDA’s S&E. At the time the Coordinated Framework for Regulation of Biotechnology was written, USDA had an
     Assistant Secretary for Science and Education. This Assistant Secretary oversaw the Office of Agriculture Biotechnology.
          Audit Report 50601-16-Te                                                                                              27
Narrative description

For contained Federally funded research for biomedical and agricultural purposes, research
approval will be granted by the funding agency. The NIH guidelines relate primarily to
biomedical experiments and only to those using rDNA techniques. Research on foods/food
additives, human drugs, medical devices, and human biologics will continue to rely on the
NIH guidelines, with NIH approval required for certain experiments such as human gene
therapy, and FDA permission required for clinical trials.

Fashioned after the NIH guidelines, the USDA’s S&E guidelines apply to agricultural research
on plants, animals, and microorganisms, and provide guidance for laboratory and field testing of
organisms derived using rDNA manipulation and other technologies. Adherence to the
appropriate set of guidelines is required for institutions receiving financial support from NIH,
S&E, or NSF. These guidelines specify what types of review procedures are required for
specific categories of experiments. Some experiments require individual approval by the
respective agency providing institutional support. For those experiments that require agency
approval, advisory committees at NIH, S&E, and NSF, composed primarily of non-Government
scientists, may be asked to provide expert review. In addition, research on plants, animals, and
animal biologics will come under APHIS’ permit requirements if a regulated article, plant pest,
or animal pathogen is involved. An APHIS permit is required prior to the shipment (movement)
or release of a regulated article, or the importation or shipment of a plant pest or regulated
article used in any research experiment.

EPA has authority for all environmental research on microbial pesticides, regardless of whether
research is Federally funded. EPA will regulate research under a two-level review system
based upon its evaluation of the potential risks posed by various types of microoganisms, with
lesser notification required for level I reporting and full review required for level II.

For the “other uses” category, jurisdiction for release may be under S&E, NSF, APHIS, or EPA,
depending primarily upon the source of the funding, but also upon the purpose of the research
and the characteristics of the GE microorganism. Thus, Federally funded research conducted for
an agricultural use will require adherence to S&E guidelines and approval of certain experiments
by S&E or NIH, depending on which is the funding agency. EPA will review commercial
research. APHIS’ jurisdiction applies to issuing permits for regulated articles, plant pests, or
animal pathogens. EPA will require an informational report for nonengineered microorganisms
released into the environment, with APHIS’ involvement for the review of plant pests or animal
pathogens.




   Audit Report 50601-16-Te                                                                   28
Agency Responses




                             USDA’S



ANIMAL AND PLANT HEALTH INSPECTION
             SERVICE,



AGRICULTURAL RESEARCH SERVICE, and



     NATIONAL INSTITUTE OF FOOD AND
             AGRICULTURE




             RESPONSE TO AUDIT REPORT



  Audit Report 50601-16-Te              29
                         MEMORANDUM                                                  May 2, 2011
United States
Department of
Agriculture

Animal and Plant
                         TO:                Gil H. Harden
Health Inspection                           Assistant Inspector General
Service
                                              for Audit
Washington, DC
20250
                         FROM:               Gregory L. Parham /s/
                                             Administrator

                         SUBJECT: APHIS Response and Request for Management
                                  Decisions on OIG Report, “Controls Over Genetically
                                  Engineered Animal and Insect Research” (50601-16-TE)


                         Thank you for the opportunity for the Animal and Plant Health Inspection Service
                         (APHIS) to comment on this report. We have addressed Recommendations
                         specifically addressed to APHIS, with our planned corrective actions and the
                         timeframes for implementation of these actions.

                         Recommendation 1: APHIS should develop an action plan, including
                         timetables and performance measures, which ensure that APHIS’ regulatory
                         framework for GE animals and insects is developed in a timely manner and
                         meets the agency’s strategic goals.

                         APHIS Response: APHIS agrees with this Recommendation. APHIS has a
                         rigorous regulatory system in place to examine and mitigate the risks of GE insects
                         that are plant pests. We agree that further clarification of our regulatory system as it
                         pertains to GE insects as animal pests is an important and timely issue. APHIS will
                         develop an action plan by December 31, 2011 that includes timetables and
                         performance measures which ensure that APHIS’ regulatory framework for GE
                         animals and insects is developed in a timely manner and meets the agency’s
                         strategic goals. The regulation of GE insects has been raised to the level of the
                         Office of Science and Technology Policy (OSTP), Agricultural Biotechnology
                         Working Group (ABWG). The ABWG has an intergovernmental subgroup that
                         will evaluate the current state of research and development and discuss potential
                         risks and statutory authorities associated with the control of GE insects. APHIS is
                         actively engaged in the interagency discussions lead by OSTP. These discussions
                         will inform the APHIS action plan.

                         Under the 1986 Federal Coordinated Framework for the Regulation of
                         Biotechnology, APHIS is one of the Federal agencies with regulatory
                         responsibilities over certain products of biotechnology. The Coordinated
                         Framework is a policy statement that describes the comprehensive federal


                    Safeguarding American Agriculture
                                                                                                   Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs                 (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                                     1-800-877-8339
Gil H. Harden                                                                     2


regulatory policy for ensuring the safety of biotechnology research and products.
Further, the 1992 Notice of Federal Policy described a risk-based, scientifically
sound approach to the oversight of planned introductions of biotechnology products
into the environment, focusing on the characteristics of the product not the process
by which the product was created. Therefore, existing statutes are considered
adequate to provide safe, risk-based oversight of biotechnology and resulting
products and there may not be a need for new regulations for GE insects. We may
determine following the ABWG discussions that issuing a guidance document to
clarify the regulatory oversight of GE insects is sufficient.
Recommendation 2: APHIS should develop a regulatory framework that
clearly defines APHIS’ scope of coverage and regulatory requirements for GE
animals and insects, and parallels the proposed revised regulations for GE
plants.

APHIS Response: APHIS agrees in part with this Recommendation. We agree the
Agency should develop a regulatory framework that clearly defines APHIS’ scope
of coverage and regulatory requirements for GE animals and insects. APHIS will
develop the recommended regulatory framework in accordance with the action plan
the Agency will prepare in response to Recommendation 1. While we are
committing to the development of a regulatory framework, we are not necessarily
committing to a change in current regulations. The regulatory framework will
identify current regulations and how they address the animal health risks associated
with GE animals and GE insects. If we need to clarify our current authority over
GE animals and insects, we will determine the most transparent way of
accomplishing this goal.

We do not agree that the framework should necessarily parallel the proposed
revised regulations for GE plants. The GE plant regulations were proposed but
have not yet been finalized and much work remains to be done on that rule.

We wish to emphasize that the Food and Drug Administration (FDA) now has a
rigorous mandatory approval process for GE animals that examines, among other
things, the health of the animal. As described in the OIG report, FDA published
Guidance to the Industry which described how FDA’s New Animal Drug Authority
will be used to evaluate the safety of GE animals. At the same time, APHIS
solicited public comment in the Federal Register in the form of a Request for
Information. APHIS sought information on any potential effects that animals with
GE traits may have on U.S. livestock health and on activities APHIS should
consider under the Animal Health Protection Act that would complement FDA’s
Guidance. The majority of comments APHIS received referenced FDA authority
over the labeling of edible products of GE animals, or indicated that such products
should not be allowed in the food supply. The substantive comments encouraged
APHIS to regulate GE insects to meet the needs of rapidly emerging technologies,
and stressed the need to collaborate with FDA over the approval of GE livestock.
Gil H. Harden                                                                        3


No information was provided through the public comments which indicated that a
GE animal would in itself pose a risk to the health of U.S. livestock by the
dissemination of pests and diseases. These results validated previous efforts made
by APHIS to determine, through a comprehensive literature search and
collaboration with the Agricultural Research Service, any documented risks to
livestock health due to biotechnology.

Further, APHIS has effective programs in place to prevent, detect and mitigate the
introduction and dissemination of animal diseases. These include regulations that
govern the import of animals, animal products and vectors (including insects) that
could introduce or disseminate animal diseases. These regulations cover animals,
products and vectors regardless of whether or not they are genetically engineered.
We acknowledge, nevertheless, the need to clarify for the public the APHIS
regulatory framework for GE animals and insects.

As indicated in our response to Recommendation 1, APHIS is an integral part of the
ABWG and its interagency subgroup which will evaluate risks associated with GE
insects and recommend actions. APHIS believes that working through the ABWG
is a fundamental step that must be completed before we complete our regulatory
framework. Since APHIS already has a regulatory system in place to examine and
mitigate the risks of GE insects as plant pests, APHIS will consider the future
direction for the regulation of GE insects as animal pests based on the outcomes of
the ABWG discussions.

Recommendation 5: APHIS should direct CPHST to develop written
management controls for a work plan approval and review process that is
transparent and ensures the accountability of funded projects.

APHIS Response: APHIS agrees that there should be a transparent work plan
approval and review process for project management. APHIS’ Center for Plant
Health Science and Technology (CPHST) is in the process of implementing a new
SharePoint-based project management system called the CPHST Project
Information Assistant (CPIA) that will be accessible throughout our Plant
Protection and Quarantine program area. Project requests will be entered,
approved, and tracked through CPIA. Work plans, budgets, and progress reports
will also be entered for each project. As part of the implementation plan, CPHST
will also develop a manual describing the project approval and review process and
how to use CPIA to manage this process. The final testing and initial entry of
projects are currently ongoing. CPIA will be fully implemented by CPHST
laboratories by September 30, 2011.
Gil H. Harden                                                                       4


Recommendation 7: APHIS should direct CPHST to develop and implement
comprehensive security plans for its laboratories.

Recommendation 8: APHIS should direct CPHST to review and update its risk
assessments, and perform reviews of each laboratory at least once every 5
years.

APHIS Response: APHIS agrees to develop and implement comprehensive
security plans for laboratories conducting work with GE insects. In addition,
APHIS will review and update laboratory risk assessments, and perform reviews
every 5 years for the laboratories conducting GE insect research. APHIS will
follow the instructions detailed in the Departmental Manual 9610-2, “USDA
Security Policies and Procedures for Laboratories and Technical Facilities,” when
developing these security plans. Our proposed completion date is September 1,
2011.
April 26, 2011

SUBJECT:         Management’s Response to Recommendations in Audit 50601-16-TE Controls
                 over Genetically Engineered Animal and Insect Research

      TO:        Jon M. Holladay
                 Acting Chief Financial Officer
                 Office of the Chief Financial Officer

                 Gil H. Harden
                 Assistant Inspector General for Audit
                 Office of the Inspector General

   FROM:         Michelle D. Garner /s/
                 Acting Director, Financial Management Division


The Agricultural Research Service (ARS) appreciates the opportunity to provide comments to
the Draft OIG Audit Report 50601-16-TE and would like to provide the following comments,
which should be addressed in the final report.

Finding 4: ARS Needs to Develop a Process for Tracking Recommendations from its
Safety, Health, and Environmental Evaluation Inspections

Recommendation 6
ARS should direct the Agency’s laboratories to develop and implement a process for tracking the
status of inspection recommendations until corrective actions have been completed.

Agency Response

ARS has policies and mechanisms for implementing corrective actions identified during health
and safety inspections. ARS Manual 230, Section 22, specifically addresses this issue from an
Agency perspective. Section 22 states that the inspection and abatement program is implemented
at the location level.
Jon M. Holladay, et. al.                                                                   2

The Agency provides checklists and abatement forms for use by the location. ARS Form 404,
Safety, Health, and Environmental Inspection Checklist serves as a guide and reference tool for
conducting inspections. The Form 404 checklist, abatement forms, and inspection procedures can
be found at the ARS Facilities Division/Safety Health & Environmental Management Branch
home page: http://www.afm.ars.usda.gov/shem/index.htm. There was a lapse at a specific ARS
location and we have provided a timeline of events and when the corrective action was
implemented at that location (Please see ARS Technical Comments Document). To further
emphasize the importance of following up on all internal/external safety inspections, the Agency
will be placing an accountability statement within each Deputy Area Director for Business
Management’s performance standards. This statement will hold the incumbent responsible for
tracking and following any management actions or recommendations to abate a hazard that were
identified during the inspection process.

• The following sections of Manual 230 are also relevant to inspections and abatement of
  findings:

    Section 3 states Research, Education, and Economics policy regarding Safety and Health
     policy, which is “… to eliminate or minimize losses incurred by the agencies, individual
     employees, and the general public as a result of actions or incidents involving or
     producing injury, illness, and property/environmental damage in the workplace….” This
     is achieved through mechanisms detailed in Section 3, to include developing standard
     operating procedures that minimize or eliminate potentially hazardous conditions or
     adverse environmental effects and taking appropriate action to correct deficiencies.

    The most relevant authorities that are listed in Manual 230 are:
       o 29 CFR, Part 1910, Occupational Safety and Health Standards; and
       o 29 CFR, Part 1960, Basic Program Elements for Federal Employee Occupational
          Safety and Health Programs.

    ARS is in the process of updating and improving Manual 230, with an anticipated release
     date of the new document during the first quarter of the 2011 calendar year. The updates
     will include the following:

         o New language and guidance will be added to Section 22, Hazard Abatement
           Plans: All identified workplace safety and health hazards will be addressed in a
           timely manner. If a condition or situation cannot be corrected within 30 days, the
           work area supervisor and safety representative will develop and implement a
           Hazard Abatement Plan. The Plan will include the following information:
Jon M. Holladay, et. al.                                                                3

                • an explanation of the circumstances contributing to the delay in abatement,
                • a proposed timetable for the abatement,
                • a summary of the steps being taken in the interim to mitigate the hazard and
                  protect employees, and
              • a requirement that the supervisor be responsible for providing the
                  information contained in the Plan to the employees in the work area by either
                  posting a copy in an accessible location or by providing copies to the
                  employees.
         o Authorities will be added, to include the Department of Agriculture (USDA)
           DR4400.007, Biosafety Program, and USDA DR9630.001, USDA Policies and
           Procedures on Biohazardous Waste Decontamination, Management, and Quality
           Controls at Laboratories and Technical Facilities.
         o To further emphasize the importance of following up on all
           internal/ external safety inspections, ARS will be placing an “accountability
           statement” within each Deputy Area Director for Business Management’s
           performance standards. This statement will hold the incumbent with tracking and
           following any management actions/recommendations to abate any hazard identified
           during the inspection process.

Questions regarding this memorandum can be directed to Robert H. Magill, Assistant Director,
Financial Management Division on 301-504-1257 or via email at Robert.Magill@ars.usda.gov.
                      
United States
Department of
Agriculture
Research,
Education, and       March 15, 2011
Economics
National Institute
of Food and
Agriculture          TO:                   Gil H. Harden
1400                                       Assistant Inspector General for Audit
Independence
Avenue SW
Washington, DC       FROM:                 Roger N. Beachy /S/
20250                                      Director
                                           National Institute of Food and Agriculture

                     SUBJECT:              Audit Report No. 50601-16-TE - Controls over Genetically Engineered
                                           Animal and Insect Research

                     This is in response to your February 14, 2011, memorandum requesting our written
                     response to the official draft of the subject audit, specifying corrective actions taken or
                     planned on each audit recommendation and proposed completion dates for implementing
                     such actions.

                     The National Institute of Food and Agriculture (NIFA) agrees with recommendations
                     Nos. 3 and 4 concerning NIFA in the subject report and the Attachment provides our
                     responses to both recommendations. NIFA plans to complete both corrective actions by
                     June 30, 2011. Below is our response to your overall recommendation in the “Executive
                     Summary”:
                     Recommendation:
                     The NIFA Director should direct laboratories that perform NIFA-funded research to
                     develop and implement a formal process for documenting and monitoring research
                     incidents involving GE animals and insects.

                     Agency Response: NIFA is in the process of amending its Award Terms and
                     Conditions to formalize the process for documenting and monitoring Incident Reporting.
                     NIFA is also establishing a central point of contact to receive accident or release reports
                     involving genetically engineered animals and insects.

                     NIFA appreciates the audit work done by the OIG auditors as their efforts have and will
                     contribute to improved monitoring and documenting of research incidents involving
                     NIFA funding.




                      



                     USDA is an equal opportunity provider and employer.
Questions regarding this memorandum can be directed to Edward Nwaba, Oversight
Branch Chief and Interim Agency Audit Liaison Official on (202) 205-5799 or via email
at enwaba@nifa.usda.gov.

Attachment

cc: Jon Holladay, OCFO




 



    USDA is an equal opportunity provider and employer.
